U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Patrick Eugene Stein v. United States of America
S.Ct. No. 20-8458
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 24,
2021, and placed on the docket on June 30, 2021. The government’s response is due on July 30,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 30, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8458
STEIN, PATRICK EUGENE
USA

MEREDITH B. ESSER
ASSITANT FEDERAL PUBLIC DEFENDER
633 17TH STREET
SUITE 1000
DENVER, CO 80202
303-294-7002
MEREDITH_ESSER@FD.ORG

